HHS/OIG-Audit--"Review of Title IV-E Foster Care Maintenance Payments Made by the Illinois Department of Children and Family Services (A-05-92-00075)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Foster Care Maintenance Payments Made by the Illinois
Department of Children and Family Services" (A-05-92-00075)
October 23, 1992
Complete Text of Report is available in PDF format
(1.37 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency claimed over $5.0
million (Federal share) in foster care maintenance payments that were ineligible
for Federal sharing. The claims were ineligible primarily because the payments
were not supported by a judicial determination containing a statement that reasonable
efforts were made to prevent the child's removal from the home or reunite the
child with his or her family. In addition to a financial adjustment for the
$5.0 million, we recommended that the State agency strengthen its controls to
ensure that all Title IV-E payments are made in accordance with Federal requirements.
Regional operating division officials concurred with our findings and recommendations.